No. 20-1574

In the Supreme Court of the United States
JOSEPH OCOL, Petitioner,
v
CHICAGO TEACHERS UNION, ET AL., Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition for
State Respondents Kwame Raoul, Lara Shayne, Steven Grossman, Chad D. Hays,
Michelle Ishmael, and Gilbert F. O’Brien Jr. contains 3,834 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

 
     
 
     
    

| \uor We

ane Elinor Notz

100 West Randolph Street
Chicago, Illinois 60601
(312) 814-5376
jane.notz@ilag.gov
Counsel for State Respondents

Executed on September 238, 2021.

      
